Centers for Medicare and Medicaid Services (CMS) | Office of Inspector General
Review of Broward General Medical Center's Reported Fiscal Year 2006 Wage Data
July 09, 2008 | Audit A-04-07-06034
Executive Summary
Broward General Medical Center (the Hospital) overstated its wage data by $12.8 million and 165,006 hours in its fiscal year (FY) 2006 Medicare cost report.  Correcting the Hospital's errors decreased the average hourly wage rate from $31.61 to $30.31.  Under the acute-care hospital inpatient prospective payment system, the Centers for Medicare and Medicaid Services (CMS) adjusts the Medicare base rate paid to participating hospitals by the wage index applicable to the area in which the hospitals are located.  CMS updates the wage indexes annually based on hospitals' reported wage data.
We recommended that the Hospital submit a revised FY 2006 Medicare cost report to the fiscal intermediary to correct the wage data misstatements and implement review and reconciliation procedures to ensure that the wage data reported in future Medicare cost reports are accurate, supportable, and in compliance with Medicare requirements.  The Hospital agreed with our findings and recommendations.
Complete Report
Download the complete report  (PDF)
Copies can also be obtained by contacting the Office of Public Affairs at 202-619-1343.
Return to CMS